No. 20In the

Supreme Court of the United States
MUHANAD AL-FAREKH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert J. Boyle
Counsel of Record
Law Office of Robert J. Boyle
277 Broadway, Suite 1501
New York, N.Y. 10007
(212) 431-0229
rjboyle55@gmail.com
Counsel for Petitioner

299389

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
1. Where the plain text of 18 U.S.C. app. 3 §4 of the Classified Information
Procedures Act (CIPA) does not require that any motion be determined
ex parte, was Petitioner denied his right to discovery and to present a
defense when the court determined his discovery motion ex parte
notwithstanding the fact that defense counsel had appropriate security
clearances?
2. Where the government’s chief evidence against Petitioner was a
purported fingerprint identification, was he denied his right to present a
defense when the trial court precluded Petitioner from utilizing a
Department of Justice (DOJ) report criticizing fingerprint identification
procedures particularly in terrorism cases?

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

RELATED CASE STATEMENT
United States v. Al-Farekh, 15-cr-268, United States District Court for the
Eastern District of New York, Judgment entered March 22, 2018.
United States v. Al-Farekh, 18-943-cr, United States Court of Appeals for
the Second Circuit. Judgment entered April 16, 2020

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED............................................................................. i
PARTIES…………………………………..………………………………… ii
RELATED CASE STATEMENT…………………………………………… ii
TABLE OF AUTHORITIES…………………………………………………..iv
OPINIONS BELOW……………………………………………………………1
JURISDICTION……………………………………………………………….. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED……………………………………………………………………..2
STATEMENT OF THE CASE………………………………………………….4
REASONS FOR GRANTING THE WRIT……………………………………..7
CONCLUSION………………………………………………………………. .. 15
APPENDIX TABLE OF CONTENTS
Page
Opinion and Judgment of the United States Court of Appeals
for the Second Circuit affirming conviction
United States v. Al-Farekh, 956 F.3d 99 (2d Cir. 2020).…………………..….A-1
Summary Order Affirming Conviction,
United States v. Al-Farekh, 810 Fed.Appx. 21 (2d Cir. 2020)………………..A-13
CIPA Decision by District Court……………………………………………..A-18
Fingerprint Decision by District Court….……………………………………A-24
Order Denying Petition for Rehearing En Banc………………………………A-26

iii

TABLE OF AUTHORITIES
Page
Cases
Alderman v. United States, 394 U.S. 165 (1969)………………………………….10
Beech Aircraft Corp. v. Rainey, 488 U.S. 153 (1988)……………………………..13
Brady v. Maryland, 373 U.S. 83 (1963)…………………………………………6,7,8
Chambers v. Mississippi, 410 U.S. 284 (1973)……………………………………11
Crane v. Kentucky, 476 U.S. 683 (1986)…………………………………………..11
Kyles v. Whitley, 514 U.S. 419 (1995)……………………………………………..11
Roviaro v. United States, 353 U.S. 53 (1957)……………………………………..10
United States v. Amawi, 695 F.3d 457 (6th Cir. 2012). …………………………..10
United States v. Al-Farekh, 956 F.3d 99 (2d Cir. 2020)………………………passim
United States v. Bagley, 473 U.S. 667 (1985)……………………………………...8
United States v. Dumestri, 424 F.3d 566 (7th Cir. 2005)……………………………9
United States v. Hanna, 661 F.3d 271 (6th Cir. 2011)…………………………….10
United States v. James Daniel Good Real Prop., 510 U.S. 43 (1993)…….……….8
United States v. Murphy, 35 F.3d 143 (4th Cir. 1994)………………………………9
United States v. Poindexter, 698 F.Supp. 316 (D.D.C. 1988)……………………...9
United States v. Stewart, 590 F.3d 93 (2d Cir. 2009)………………………………9

iv

Statutes
18 U.S.C. app. 3 §§1-16………………………………………………………passim
Fed.R.Crim.P. 16……………………………………………………………...…6,8
Fed.R.Evid. 803(8)(A)(iii)……………………………………………………….13

Other Authorities
S.Rep.No. 96-823 at 9 (1980)……………………………………………………..9

v

OPINIONS BELOW
On April 16, 2020 a panel of the Second Circuit affirmed the Petitioner’s
conviction in a published opinion, United States v. Al-Farekh, 956 F.3d 99 (2d Cir.
2020) and a Summary Order issued that same date, United States v. Al-Farekh, 810
Fed.Appx. 21 (2d Cir. 2020) (A1, A13)1. A timely motion for rehearing and
rehearing en banc was denied on August 11, 2020. ((A26).
The District Court issued two written decisions addressing the issues raised
in this petition. On August 23, 2016, it granted the government’s motion pursuant
to CIPA including its request that it be determined ex parte. (A18). The District
Court granted the government’s motion in limine to preclude use of a Department
of Justice report during Petitioner’s cross examination of the government’s
fingerprint expert on September 11, 2017. (A24).

JURISDICTION
The Court of Appeals’ judgment affirming the Petitioner’s conviction was
entered on April 16, 2020. After an enlargement was granted, a timely petition for
rehearing and rehearing en banc was filed. The order denying that petition was

“A” refers to the Appendix to this Petition for a Writ of Certiorari. Numbers
preceded by “T” refer to the trial transcript.
1

1

entered on August 11, 2020 thereby rendering this Petition timely. (A26). Rule
13.3. Petitioner invokes this Court’s jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
I.

The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the state and district wherein the crime shall have been
committed, which district shall be previously ascertained
by law, and be informed of the nature and cause of the
accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses
in his favor, and to have the assistance of counsel for his
defense.

II.

The Fifth Amendment to the United States Constitution provides:
No person shall be held to answer for a capital or
otherwise infamous crime unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life and limb; nit shall be compelled in any
criminal case to be a witness against himself, not be
deprived of life liberty or property without due process of
law, not shall private property be taken for public use
without just compensation.

III.

18 U.S.C. app. 3 § 4, “Discovery of Classified Information by
Defendants” provides:
The court, upon a sufficient showing, may authorize the
United States to delete specified items of classified
information from documents to be made available to the
defendant through discovery under the Federal Rules of
2

Criminal Procedure, to substitute a summary of the
information for such classified documents or substitute a
statement admitting relevant facts that the classified
information would tend to prove. The court may permit
the United States to make a request for such authorization
in the form of a written statement to be inspected by the
court alone. If the court enters an order granting relief
following such an ex parte showing the entire text of the
United States shall be sealed and preserved in the records
of the court to be made available to the appellate court in
the event of an appeal.
IV.

Fed.R.Evid. 803(8) provides:
Public Records. A record or statement of a public office
if:
(A) it sets out:
(i) the office's activities;
(ii) a matter observed while under a legal duty to report,
but not including, in a criminal case, a matter observed
by law-enforcement personnel; or
(iii) in a civil case or against the government in a
criminal case, factual findings from a legally authorized
investigation; and
(B) the opponent does not show that the source of
information or other circumstances indicate a lack of
trustworthiness

3

STATEMENT OF THE CASE
Petitioner Muhanad Al-Farekh respectfully petitions this Court for a writ of
certiorari to review the judgment and opinion of the United States Court
of Appeals for the Second Circuit entered on April 16, 2018. That judgment
affirmed a judgment of the United States District Court for the Eastern District of
New York convicting petitioner Al-Farekh of violating 18 U.S.C. § 844(f)(1)(use
of explosives), 18 U.S.C. § 2332a(a)(1) (conspiracy to use weapon of mass
destruction), 18 U.S.C. § 2332a(b)(conspiracy to use a weapon of mass destruction
by a United States national), 18 U.S.C. § 2332f(a)(2) (conspiracy to bomb a
government facility), 18 U.S.C. § 2339A(a)(conspiracy to provide material support to
terrorists), 18 U.S.C. § 2339A(a) (provision and attempted provision of material
support to terrorists), 18 U.S.C. § 2339B(a)(1) (conspiracy to provide material
support to a foreign terrorist organization) and 18 U.S.C. §§ 844(f)(1)(provision and
attempted provision of material support to a foreign terrorist organization).
Appellant was sentenced primarily to 45 years imprisonment.
Petitioner Muhanad Mahmoud Al-Farekh, was born in 1985 in Houston,
Texas. He was raised primarily in Abu Dhabi and attended college at the
University of Manitoba in Canada.

On January 8, 2015 a one-count Complaint

was filed in the United States District Court for the Eastern District of New York.
It charged petitioner Al-Farekh with conspiracy to provide material support to
4

terrorists. It was alleged that in 2007, while appellant was a college student at the
University of Manitoba he agreed to travel to Pakistan and be trained to engage in
violent jihad. On April 2, 2015 petitioner was placed in United States’ custody
and transported to the Eastern District of New York. An indictment returned on
May 28, 2015 charged the same offense. Then, on January 6, 2016 a nine-count
superseding indictment was filed. In addition to four material support for terrorism
charges, five counts charged appellant with involvement in a January 19, 2009
explosion outside of Forward Operating Base (FOB) Chapman in the Khost region
of Afghanistan.
During that attack two trucks armed with explosives approached the
entrance to the Base. One truck exploded, the other did not. The contents of the
unexploded truck, including explosives, were removed by crime scene personnel
and then shipped to the United States for examination. Latent fingerprints were
lifted from packing tape. Following petitioner’s 2015 arrest by U.S. authorities,
his known prints were compared with the latents lifted from the packing tape.
FBI fingerprint examiner Karen Sibley opined that 18 of those prints were
appellant’s.
Petitioner sought admission of a Report prepared by the Justice
Department’s Office of Inspector General that was critical of the FBI’s fingerprint
analysis. The Report focused on the case of Brandon Mayfield. Mayfield an
5

attorney and Muslim working in Portland, Oregon was linked to a terrorist attack
in Madrid, Spain through a fingerprint identification that turned out to be wrong.
The Report criticized the FBI’s result-oriented approach to fingerprint analysis
particularly in terrorism cases. Appellant sought to use the Report during his cross
examination of Agent Sibley to illustrate that misidentifications are made even
when proper procedures are followed.

The trial court precluded use of that

Report in petitioner’s case-in-chief and during the cross examination of Sibley.
During pre-trial proceedings, the government disclosed that some material
discoverable under Fed.R.Crim.P. 16 and/or Brady v. Maryland, 373 U.S. 83
(1963) had been classified. The government then filed a series of motions pursuant
to the Classified Information Procedures Act (CIPA), 18 U.S.C. app. 3 §§1-16 . It
sought permission to withhold that material and produce to petitioner’s counsel
summaries that were themselves classified. The content of the government’s
motion was filed ex parte. Petitioner opposed the government’s motion, including
its ex parte consideration. The District Court granted the government’s motion in
all respects. (A18-A23).

6

REASONS FOR GRANTING THE WRIT
I.

By Sanctioning Ex Parte Determination of CIPA Motions
Notwithstanding Defense Counsel’s Security Clearance, the Court of
Appeals Created, In Violation of the Statute, a Mandatory
Requirement that Such Proceedings Shall be Ex Parte.

On February 29, 2016, the Government filed a motion pursuant to Section 2
of the Classified Information and Procedures Act (CIPA). It represented that
some information ordinarily discoverable might be classified. An ex parte
motion pursuant to CIPA was filed on June 27, 2016. Petitioner opposed the
motion on substantive grounds and because it was filed ex parte. On August 23,
2006 the court granted the government’s motion in its entirety (A18-A23). It
found that the classified summaries that the government proposed to disclose to
cleared defense counsel were sufficient and that any withheld material was not
helpful to the defense. Defense counsel, who had the appropriate security
clearance, were not permitted to view the source documents from which the
classified summaries were derived.
The Court of Appeals held that the District Court did not abuse its discretion
when it permitted the government, based upon an ex parte submission, to substitute
those classified summaries for information that would otherwise have been
discoverable under Fed.R.Crim.P. 16 and/or Brady v. Maryland, 373 U.S. 83
(1963). United States v. Al-Farekh, 956 F.3d 99, 106-108 (2d Cir. 2020) (A3-A5).
Its decision represents an unwarranted expansion of the government’s ability to
7

withhold information that might be helpful to defendants in criminal cases.
Indeed, its decision could be used to require ex parte proceedings in CIPA cases.
This Court should grant certiorari in order to clarify the permissible scope of ex
parte determinations in CIPA cases.
Ex Parte proceedings, especially in criminal cases, are exceedingly
disfavored. By their very nature, ex parte proceedings impair the integrity of the
criminal justice system. As this Court has noted, “[f]airness can rarely be obtained
by secret, one-sided determination of facts decisive of rights…No better instrument
has been devised for arriving at truth than to give a person in jeopardy of serious
loss notice of the case against him and an opportunity to meet it.” United States v.
James Daniel Good Real Prop., 510 U.S. 43, 55 (1993).
Fed.R.Crim.P. 16(a)(1)(E)(i) requires that the government produce to the
defendant information that is “material” to preparing a defense. Separately, the
government is required to disclose information that tends to exculpate the
defendant or impeach a prosecution witness. Brady v. Maryland, 373 U.S. 83
(1963); United States v. Bagley, 473 U.S. 667 (1985).

The Classified

Information and Procedures Act (CIPA), 18 U.S.C. app. 3 §§ 1-16 permits the
government, with the approval of the trial court, to withhold information otherwise
discoverable under Rule 16 and Brady if disclosure might damage the security of
the United States. However, CIPA does not limit the government’s disclosure
8

obligations. United States v. Stewart, 590 F.3d 93, 130 (2d Cir. 2009); United
States v. Dumestri, 424 F.3d 566, 578 (7th Cir. 2005). In fact, when enacting
CIPA, Congress warned that if information is withheld “the defendant should not
stand in a worse position because of the fact that classified information is involved,
than he would without the Act.” S.Rep.No. 96-823 at 9 (1980); see also United
States v. Poindexter, 698 F.Supp. 316, 320, (D.D.C. 1988).
When the government seeks to make deletions to or provide summaries of
otherwise discoverable material
[t]he court may permit the United States to make a
request for such authorization in the form of a written
statement to be inspected by the court alone.
18 U.S.C. app. 3 § 4. The Court of Appeals noted that the legislative history of § 4
supported its determination that § 4 proceedings be conducted ex parte. United
States v. Al-Farekh, 956 F.3d at 108 (A4). Clearly, § 4 authorizes ex parte
submissions. But it does not require them. Had Congress chosen to require ex
parte submissions in CIPA applications it could have used the word “shall permit”
instead of “may permit” when addressing how § 4 proceedings should be
conducted. The Court of Appeals was not free to read such mandatory language
into the CIPA statute. Cf. United States v. Murphy, 35 F.3d 143, 145 (4th Cir.
1994). (Courts are not free to read language into a statute.). By declining to use
mandatory language in the statute, Congress envisioned situations where defense
9

counsel would review classified source material to aid in arguing how that material
was “relevant and helpful to the defense of [the] accused.” Roviaro v. United
States, 353 U.S. 53, 60-61 (1957). As the Sixth Circuit has noted,
The defendants and their counsel, who are in the best
position to know whether information would be helpful
to their defense, are disadvantaged by not being
permitted to see the information—and thus to assist the
court in its assessment of the information’s helpfulness.
United States v. Amawi, 695 F.3d 457, 471 (6th Cir. 2012). See also Alderman v.
United States, 394 U.S. 165, 182 (1969) (observing than an advocate with intimate
knowledge of facts are in the best position to determine whether something is
relevant).

Even where classification of information is proper it “must give way

under some circumstances to a criminal defendant’s right to present a meaningful
defense.” United States v. Hanna, 661 F.3d 271, 295 (6th Cir. 2011).
The Court of Appeals’ concern that disclosure to defense counsel would
“defeat the very purpose”, of CIPA, United States v. Al-Farekh, 956 F.3d at 108,
(A4) is not justified in this case. Petitioner Al-Farekh was represented by counsel
who had obtained the appropriate security clearance. Counsel were prohibited
from disclosing classified information to anyone absent compliance with CIPA §§
5 and 6. Given that fact, there was no justification for denying them the
opportunity to have access to the government’s motion so that an effective
argument could be made for further disclosure.
10

II.

The Preclusion of a Government Report Critical of the Federal Bureau
of Investigation’s Fingerprint Identification Process Denied Petitioner
Due Process of Law and His Right to Present a Defense.

Whether grounded in the Fifth Amendment’s Due Process Clause or the
Sixth Amendment’s Confrontation Clause, it is well-settled that a criminal
defendant has the right to present a defense. Crane v. Kentucky, 476 U.S. 683, 687
(1986); Chambers v. Mississippi, 410 U.S. 284, 302 (1973). Included in that right
is the opportunity to challenge the integrity of law enforcement’s investigation into
the offense charged. This is so because where “the probative force of evidence
depends on the circumstances in which it was obtained and those circumstances
raise a possibility of fraud, indications of conscientious police work will enhance
probative force and slovenly work till diminish it.” Kyles v. Whitley, 514 U.S. 419,
448-449, n. 15 (1995).

Petitioner was denied that right when the lower court

precluded him from utilizing a March 2006 Report of the Justice Department’s
Office of the Inspector General on the FBI’s handling of the Brandon Mayfield
case. In that case the FBI erroneously identified fingerprints found at the scene of
a terrorist attack as Mayfield’s.
Petitioner Al-Farekh was charged inter alia, with conspiring to commit a
2009 terrorist attack at a United States military base in Afghanistan. Two vehicles
were use in that attack. One of them exploded but the other did not. Latent
fingerprints were lifted from packing tape on the unexploded device. At trial, FBI
11

fingerprint examiner Karen Sibley opined that eighteen of the latent fingerprints
lifted from that tape petitioner Al-Farekh’s. Sibley first examined the latent
fingerprints in 2015, after petitioner was in United States’ custody.

The thrust of

petitioner’s cross examination of Examiner Sibley was that fingerprint examination
is not an objective science. Rather “identifications” are subjective, and mistakes
are made even when proper procedures are followed. (T. 476-79). But Ms. Sibley
countered that “research has shown latent fingerprint examinations are accurate in
reaching accurate and reliable conclusions.” (T.477).
In the Mayfield case terrorists detonated a bomb on several commuter trains
in Madrid, Spain killing 200 and wounding 1,400 others injured. The Spanish
National Police (SNP) recovered fingerprints on a bag of detonators. The FBI
Laboratory provided assistance. (Report, SDNY, 15 Cr. 268, Dkt. 140 hereinafter
“Report”). An FBI Examiner who conducted a side-by-side review concluded that
one of the images, LFP 17, was the fingerprint of Brandon Mayfield, an attorney in
Portland, Oregon who also happened to be Muslim. The SNP did the same
comparison and reached a negative conclusion (Id. ). Then, on May 19, 2004 the
SNP informed the FBI that it had positively identified LFP 17 as the fingerprint of
a different person, an Algerian named Ouhnane Daoud. Confronted with this
identification, the FBI withdrew its identification of Mayfield.

12

The Office of the Inspector General conducted an investigation. It identified
several factors that contributed to the misidentification. The Report concluded
that “the [FBI] examiners committed error in the examination procedure and that
the misidentification could have been prevented through a more rigorous
application of several principles of latent fingerprint examination.” (Report, p. 6).
For example, the examiners engaged in “circular reasoning” moving “backward”
from the known prints of Mayfield to the latent image. Having found 10 points of
similarity between the latent image and Mayfield, the examiners then found
“murky or ambiguous” details that they also termed similar. (Report, p. 7).
Preliminarily, the Mayfield Report was not hearsay. It was admissible under
Fed.R.Evid. 803(8)(A)(iii) as it was a public record containing the factual findings
of a legally authorized investigation. As this Court has held, such reports are
presumptively admissible. Beech Aircraft Corp. v. Rainey, 488 U.S. 153, 167
(1988).
The Court of Appeals upheld the exclusion of the Mayfield Report finding
that it was only “marginally relevant to petitioner and counsel was able to cross
examine her about the fingerprint identification process. United States v. AlFarekh 956 F.3d at 115 (A7-A8).
The Mayfield Report was not merely marginally relevant. The Report which
criticized the FBI’s process of fingerprint identification, especially in terrorism
13

cases, was highly relevant as there were remarkable similarities between the
process used in Mayfield and this case. Petitioner Al-Farekh, a Muslim, was in
U.S. custody and charged with a terrorism offense before the fingerprint
comparison was conducted. Mayfield is a Muslim who, according to the FBI, had
contacts with terrorists.
FBI Examiner Karen Sibley conducted a side by side comparison of the
latent images and appellant’s fingerprints (T. 429). The same process was used in
Mayfield (Report, p. 1). In this case there were ten points of similarity between the
known prints and latent images. (T. 485). The same was true in Mayfield (Report,
p. 7). The identification here was “confirmed” by another examiner as it was in
Mayfield. (T. 480, Report, p. 3).
Assuming arguendo that the Report was not admissible on petitioner’s case
in chief, he should have been able to use it during his cross examination of FBI
examiner Sibley. She testified that the FBI’s process results in “accurate and
reliable conclusions”. (T. 477). Given that testimony, petitioner should have been
able to confront Ms. Sibley with a government report that found that even when
proper procedures are followed, subjective factors can lead to conclusions that are
far from reliable. Precluded from using the Mayfield Report, trial counsel could
not challenge Sibley’s self-serving claim that “research” had shown that fingerprint
examinations are universally reliable.
14

CONCLUSION
For all the foregoing reasons, the Petitioner Muhanad Al-Farekh prays that a Writ
of Certiorari issue to review the opinion of the United States Court of Appeals for the
Second Circuit in this case.
Dated: New York, New York
November 5, 2020
Respectfully submitted,
/s/ Robert J. Boyle
ROBERT J. BOYLE
Counsel Of Record
277 Broadway, Suite 1501
New York, N.Y. 10007
(212) 431-0229
Attorney for Muhanad Al-Farekh

15

APPENDIX A

A-1

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

956 F.3d 99
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
v.
MUHANAD MAHMOUD ALFAREKH, Defendant-Appellant,
No. 18-943-cr
|
August Term 2019
|
Argued: December 12, 2019
|
Decided: April 16, 2020
Synopsis
Background: After government's motion for protective order
was granted in the United States District Court for the
Eastern District of New York, Brian M. Cogan, J., 2016
WL 4444778, defendant was convicted of, among other
things, using explosives, conspiring to murder U.S. nationals,
conspiring to use a weapon of mass destruction, conspiring
to bomb a U.S. government facility, and providing material
support to terrorists. Defendant appealed.

Holdings: The Court of Appeals, Cabranes, Circuit Judge,
held that:
Classified Information Procedures Act (CIPA) does not limit
in camera, ex parte proceedings on motions for protective
orders related to classified information only to cases where
defense counsel does not have the requisite security clearance;
procedures that resulted in witness's out-of-court
identification of defendant as suspect in terrorist activity were
not unduly suggestive; and
district court's limitation on defendant's cross-examination
of FBI fingerprint examiner did not violate his rights under
Confrontation Clause.
Affirmed.

*102 On Appeal from the United States District Court for
the Eastern District of New York (Brian M. Cogan, Judge)
Attorneys and Law Firms
Richard M. Tucker, Assistant United States Attorney (David
C. James, Douglas M. Pravda, Saritha Komatireddy, Assistant
United States Attorneys; Alicia Cook, Trial Attorney,
Counterterrorism Section, United States Department of
Justice, Washington, D.C., on the brief), for Richard P.
Donoghue, United States Attorney, Eastern District of New
York, Brooklyn, NY, for Appellee.
Lawrence M. Stern (Robert J. Boyle, on the brief), New York,
NY, for Defendant-Appellant.
Before: Cabranes, Lohier, Circuit Judges, and Reiss, District
Judge.*
Opinion
José A. Cabranes, Circuit Judge:
*103 Defendant-Appellant Muhanad Mahmoud Al-Farekh
(“Al-Farekh”) is a U.S. citizen who traveled to Pakistan in
2007 to join Al-Qaeda. He became a leader in the terrorist
organization and waged violent jihad against the United States
and its allies in the Middle East. As a member of al-Qaeda, AlFarekh conspired to bomb a U.S. military base in Afghanistan.
In 2015, agents of the Federal Bureau of Investigation (“FBI”)
arrested him in Pakistan and brought him to the United States
to be prosecuted for his crimes.**
Following a jury trial, Al-Farekh was convicted of, among
other things, using explosives, conspiring to murder U.S.
nationals, conspiring to use a weapon of mass destruction,
conspiring to bomb a U.S. government facility, and providing
material support to terrorists. The U.S. District Court for
the Eastern District of New York (Brian M. Cogan, Judge)
sentenced Al-Farekh principally to 45 years’ imprisonment.
Al-Farekh appeals the District Court's judgment and raises
a number of challenges to his conviction and sentence. We
decide here three of those challenges, leaving the others to be
addressed in a summary order filed simultaneously herewith:
(1) whether a district court abuses its discretion where
it denies a defense counsel with the appropriate security
clearance access to motions filed by the Government ex parte
pursuant to section 4 of the Classified Information Procedures
Act (“CIPA”)1; (2) whether a custodial interrogation that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

A-2

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

takes place overseas over a period of several weeks and
involves the display of hundreds of photographs as part of
a foreign country's counterterrorism investigation is unduly
suggestive, thereby rendering inadmissible an out-of-court
photo identification of the defendant; and (3) whether a
district court abuses its discretion when it limits the crossexamination of a fingerprint examiner to preclude references
to a fingerprint misidentification in a wholly unrelated case
that took place 16 years ago—i.e., the Brandon Mayfield
incident.2
*104 We answer all three questions in the negative.
Specifically, we hold that, in the circumstances presented
here, the District Court did not err in adjudicating the
Government's CIPA motions ex parte and in camera,
admitting the out-of-court photo identification of Al-Farekh,
and limiting the cross-examination of the Government's
fingerprint examiner.
In the summary order filed today, we decide the other issues
raised in Al-Farekh's appeal. In sum, the judgment of the
District Court is AFFIRMED.

I. BACKGROUND
Al-Farekh is a U.S. citizen who was born in 1985 in
Houston, Texas and was raised in the United Arab Emirates.
Between 2005 and 2007, Al-Farekh attended the University
of Manitoba in Canada. According to the Government, AlFarekh dropped out of college; traveled to Pakistan; joined alQaeda; became a senior leader of the terrorist organization;
and was responsible for, among other things, conspiring
to perpetrate a violent attack against civilian and military
personnel in a U.S. military base in Afghanistan.
On January 8, 2015, Al-Farekh was charged by complaint
with conspiring to provide material support to terrorists, in
violation of 18 U.S.C. § 2339A. Several weeks later, on
February 1, FBI agents arrested Al-Farekh in Pakistan and
brought him to the United States.
On May 28, 2015, a grand jury returned an indictment
charging Al-Farekh for the same offense, and on January 6,
2016, and January 5, 2017, a grand jury returned superseding
indictments. Al-Farekh was tried on the basis of the second
superseding indictment for the following counts: using
explosives in violation of 18 U.S.C. § 844(f)(1)–(2) (Count
One); conspiring to murder U.S. nationals in violation of

18 U.S.C. § 2332(b)(2) (Count Two); conspiring to use
a weapon of mass destruction in violation of 18 U.S.C.
§ 2332a(a)(Count Three); conspiring to use a weapon of
mass destruction by a U.S. national in violation of 18
U.S.C. § 2332a(b) (Count Four); conspiring to bomb a U.S.
government facility in violation of 18 U.S.C. § 2332f (Count
Five); conspiring to provide, attempting to provide, and
providing material support to terrorists in violation of 18
U.S.C. § 2339A(a) (Counts Six and Seven); and conspiring
to provide, attempting to provide, and providing material
support to the Foreign Terrorist Organization al-Qaeda in
violation of 18 U.S.C. § 2339B (Counts Eight and Nine).
A. Pretrial Proceedings
1. CIPA Materials
The Government's case against Al-Farekh included classified
material. On June 30, 2016, the Government filed an ex
parte classified motion for a protective order pursuant to §
4 of CIPA, which Al-Farekh opposed. On August 23, 2016,
after reviewing the classified materials, the District Court
granted the Government's ex parte motion. On April 28, 2017,
the Government filed ex parte a supplemental CIPA motion,
which the District Court granted on May 24, 2017.

2. Deposition of Overseas Witness
The Government's case against Al-Farekh also included
testimony by a former al-Qaeda collaborator and later
Government witness residing in the Middle East. On
November 8, 2016, the Government filed a motion for leave to
take the witness's testimony by deposition pursuant to Federal
Rule of Criminal Procedure 15. To protect the witness's safety
and that *105 of his family, the Government also asked the
Court to permit the witness to testify under a pseudonym
and to limit the cross-examination into the witness's identity,
country of origin, nationality, current location, and his
ongoing cooperation with authorities. The Government did
not, however, seek to limit its disclosures to Al-Farekh on
these subjects. On December 9, 2016, the District Court
granted the motion.
On March 14, 2017, the witness, who testified under the
pseudonym “Sufwan Murad,” was deposed. Murad was the
driver and bodyguard of al-Qaeda leader Haji Mohammed.
Murad testified that he saw a person he knew as Abdullah

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

A-3

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

al-Shami, a senior official of al-Qaeda's external operations
group, on two separate occasions while driving Mohammed
to deliver monthly stipends to the members of al-Shami's
al-Qaeda brigade. Murad described both encounters in
significant detail. Murad also identified a photograph of AlFarekh as depicting the person he knew as al-Shami.
The able district judge presided over the Rule 15 deposition.
On July 8, 2017, Al-Farekh moved to suppress Murad's outof-court photo identification of Al-Farekh and the related
testimony regarding Al-Farekh's membership in al-Qaeda.
The District Court denied the motion.

2. Al-Farekh's Case
During the Government's case-in-chief, Al-Farekh's counsel,
through rigorous cross-examination, focused on undermining
the credibility of the Government's witnesses and the
reliability of its evidence. During his own case-in-chief, AlFarekh did not call any witnesses but introduced a stipulation
recounting certain inconsistent, out-of-court statements by
Murad and another Government witness.

3. The Verdict and Sentence
B. Trial and Sentencing Proceedings
The trial of Al-Farekh started on September 12, 2017, and
lasted approximately two weeks.

On September 29, 2017, the jury found Al-Farekh guilty of
all nine counts of the *106 second superseding indictment.
On March 13, 2018, the District Court sentenced Al-Farekh
principally to 45 years’ imprisonment.

1. The Government's Case
As a student at the University of Manitoba, Al-Farekh
joined the Muslim Students Association, where he met and
befriended his future al-Qaeda co-conspirators, Ferid Imam
and Maiwand Yar. Al-Farekh, Imam, and Yar discussed and
exchanged radical jihadist videos, including some lectures
by Anwar al-Awlaki, a now-deceased terrorist who was the
leader of al-Qaeda in the Arabian Peninsula. On March 8,
2007, Al-Farekh, Imam, and Yar dropped out of college and
flew from Canada to Pakistan, where they headed to the
Federally Administered Tribal Areas to join al-Qaeda.
On January 19, 2009, two vehicles carrying vehicleborne improvised explosive devices (“VBIED”) approached
Forward Operating Base Chapman, an important U.S.
military base in Afghanistan. The plan was for the first vehicle
to detonate its VBIED at the gate so the second vehicle could
detonate its significantly larger and more powerful VBIED
inside the base and maximize the number of casualties and
damage. The first VBIED exploded as planned, injuring
several Afghan nationals and a U.S. soldier; the second
vehicle was stuck in the crater caused by the first VBIED and
did not explode. The driver of the second vehicle was shot
and killed after abandoning the vehicle. Latent fingerprints
and a hair follicle were recovered from adhesive packing tape
in the undetonated VBIED. According to the Government, 18
fingerprints and the hair follicle were matched to Al-Farekh.

II. DISCUSSION
On appeal, Al-Farekh challenges many of the District Court's
evidentiary rulings, as well as the reasonableness of his
sentence. As stated above, we address here only three of the
challenges to his conviction: (1) whether the District Court
erred in reviewing and adjudicating the Government's CIPA
motions ex parte and in camera; (2) whether the District Court
erred in admitting Murad's out-of-court photo identification
of Al-Farekh; and (3) whether the District Court erred in
limiting Al-Farekh's cross-examination of the Government's
fingerprint examiner.
For the reasons stated below, we find no error in the District
Court's rulings and thus affirm the District Court's judgment.
A. The Ex Parte Review and Adjudication of CIPA
Motions
Al-Farekh argues that the District Court's ex parte, in camera
review and adjudication of the Government's filings made
pursuant to § 4 of CIPA constitutes reversible error. More
specifically, Al-Farekh argues that the District Court was
required to provide him with access to the Government's
filings because his counsel had the requisite security
clearance.3 We review the challenge to the District Court's
handling of the CIPA motions for “abuse of discretion.”4

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

A-4

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

CIPA establishes procedures for the handling of “[c]lassified
5

information” in criminal cases. The purpose of CIPA is “to
protect[ ] and restrict [ ]the discovery of classified information
in a way that does not impair the defendant's right to a fair
trial.”6 Section 4 of CIPA governs the discovery of classified
information by criminal defendants. It provides:
The court, upon a sufficient showing, may authorize
the United States to delete specified items of classified
information from documents to be made available to
the defendant through discovery under the Federal Rules
of Criminal Procedure, to substitute a summary of the
information for such classified documents, or to substitute
a statement admitting relevant facts that the classified
information would tend to prove. The court may permit the
United States to make a request for such authorization in
the form of a written statement to be inspected by the court
alone. If the court enters an order granting relief following
such an ex parte showing, the entire text of the statement
of the United States shall be sealed and preserved in the
records of the court to be made available to the appellate
court in the event of an appeal.7
We have read this provision to confirm the “district courts’
power under *107 Federal Rule of Criminal Procedure
16(d)(1) to issue protective orders denying or restricting
discovery for good cause, which includes information vital to
the national security.”8
As relevant here, we have held that § 4 of CIPA and Federal
Rule of Criminal Procedure 16(d)(1) “authorize ex parte
proceedings” and that a “district court act[s] well within its
discretion in reviewing [CIPA] submissions ex parte and in
camera.”9 As such, notwithstanding the rarity of ex parte
proceedings in criminal matters, there can be no question
that a district court's ex parte, in camera adjudication of
CIPA motions falls squarely within the authority granted by
Congress.
Al-Farekh argues that this Court “has sanctioned ex parte
proceedings in CIPA cases” only where defense counsel did
not possess the requisite security clearance.10 Al-Farekh asks
us to hold that, where a defense counsel has an appropriate
security clearance, the District Court may not adjudicate the
CIPA motions ex parte and must give defense counsel access
to the classified information.
We decline to adopt any such bright-line rule. Nothing in
the text of § 4 limits the District Court's authority to review

classified information ex parte only where defense counsel
lacks a security clearance. Nor do our decisions on § 4
of CIPA—United States v. Aref and United States v. AbuJihaad—turn on that fact. To the contrary, as explained below,
Al-Farekh's proposed rule cannot be reconciled with CIPA as
enacted by Congress and interpreted by our Court.
Starting with the text, the plain language of § 4 makes
clear that a district court is required to decide in the first
instance whether the Government's classified information is
discoverable and the extent and form of any disclosure to
the defendant.11 The structure of the CIPA statute reinforces
our reading of § 4. Congress knew how to provide for the
participation of defendants in certain in camera proceedings,
as it did in § 6 of CIPA.12 Yet, notably, Congress did not
require such participation in § 4 proceedings. Instead, § 4
simply provides that an ex parte motion by the Government
may “be inspected by the court alone.”13
Section 4 also authorizes the Government to ask a district
court to, among *108 other things, substitute a summary of
the classified information or a statement of the discoverable
information.14 And § 7 authorizes the Government to file an
interlocutory appeal from a decision denying a motion for
a protective order.15 If a defendant's counsel was required
to participate in a § 4 proceeding and be provided access to
classified information, as Al-Farekh contends, the alternative
relief authorized in these provisions would be rendered
insignificant, if not meaningless.
The legislative history also supports our reading of the
statute. The House Report states, for example, that “since
the government is seeking to withhold classified information
from the defendant, an adversary hearing with defense
knowledge would defeat the very purpose of the discovery
rules.”16 And our reading is consistent with that of
other Circuits that have acknowledged, either explicitly or
implicitly, the lawfulness and appropriateness of ex parte
proceedings under § 4 of CIPA.17 More generally, it is
consistent with the well-settled notion that ex parte, in camera
review can be an appropriate procedure for district judges
to rely upon when called to handle particularly sensitive
documents.18
As a practical matter, because it may well be that the
information in a § 4 motion is not discoverable at all,
Al-Farekh's theory would permit a defendant represented

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

A-5

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

by counsel with a security clearance to gain access to
classified information that would otherwise be unavailable to
the defendant. That possibility could result in the improper
disclosure of information that, by its very nature, may put the
national security of the United *109 States at risk.19
Here, notwithstanding the District Court's authority to review
the CIPA filings without comment by Al-Farekh, the District
Court met ex parte with defense counsel so that counsel
could present Al-Farekh's theory of the case and his potential
defenses. Following this meeting, the District Court reviewed
the classified information in the Government's CIPA materials
to determine whether it was helpful or material to Al-Farekh's
defense and whether the Government's proposed summary
substitutions were adequate to guarantee Al-Farekh a fair
trial. The Government even revised some of its proposed
substitutions after meeting with the District Court and before
the District Court approved them.
Far from abusing its discretion, the District Court properly
exercised its authority under CIPA when it reviewed and
adjudicated the Government's CIPA motions ex parte and in
camera. We find no basis in CIPA for vacating Al-Farekh's
conviction.
B. Murad's Out-of-Court Photo Identification of AlFarekh
Al-Farekh also contends that the District Court denied him
his due process rights under the Fifth Amendment when
it denied his motion to exclude Sufwan Murad's out-ofcourt photo identification of Al-Farekh as the man Murad
knew as “Abdullah al-Shami, external operations official of
Al-Qaeda.”20 Specifically, Al-Farekh argues that the photo
identification should have been suppressed as the product of
an unduly suggestive identification procedure. We review the
District Court's admission of identification evidence for clear
error,21 overturning its “findings as to what procedures were
used ... only if clearly erroneous” and giving due “deference”
to its “assessment of the credibility of the witness[ ].”22
Murad, a former al-Qaeda collaborator, testified at his Rule 15
deposition that he saw a person he knew as Abdullah al-Shami
on two separate occasions while driving al-Qaeda leader Haji
Mohammed to deliver stipends to members of al-Shami's alQaeda brigade. [Redacted].23 [Redacted].24

[Redacted], authorities in Murad's “home country”25 again
interrogated him [Redacted]. During that interrogation,
Murad mentioned al-Shami and provided a detailed
description of al-Shami's physical appearance. Murad then
worked with a sketch artist to create a computer sketch *110
of al-Shami. Murad testified that he “would give [the sketch]
about 80 percent accuracy.”26
[Redacted].27 In his home country, interrogators showed
Murad approximately 300 photographs and asked him to
identify the person in each picture. [Redacted].28
In his home country, Murad identified one photograph of
Al-Farekh after providing his description of al-Shami and
helping to compose the sketch. Murad expressed the view that
he had “100 percent” confidence in his identification.29 At the
time of the identification in his home country, Murad wrote a
statement on the back of the photograph depicting Al-Farekh,
the person Murad knew as “Abdullah al-Shami, external
operations official of Al-Qaeda.”30 At his deposition much
later, Murad provided a description of al-Shami's appearance
that is substantially similar to the one he testified he had
provided to the authorities in his home country, and also
identified the same photograph of Al-Farekh.
In reviewing Al-Farekh's due process challenge to the
admission of Murad's identification, we must first ask
whether the identification procedures employed overseas
were “unduly suggestive of the suspect's guilt.”31 In
conducting this threshold inquiry, we must “examine the
procedures employed in light of the particular facts of the
case and the totality of the surrounding circumstances.”32
If the procedures were not unduly suggestive, “the trial
identification testimony”—here, Murad's testimony at his
Rule 15 deposition—“is generally admissible without further
inquiry into the reliability of the [out-of-court,] pretrial
identification.”33 That is so because, where there is
no possible taint of suggestiveness in the identification
procedures, “any question as to the reliability of the witness's
identifications goes to the weight of the evidence, not its
admissibility.”34
If the identification procedures were unduly suggestive,
then we must consider whether the “in-court identification”
is “independently reliable rather than the product of the
earlier suggestive procedures.”35 An identification that is
independently reliable could still be admissible, “although

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

A-6

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

a strongly suggestive pretrial identification procedure
necessarily makes *111 it difficult for the reviewing court to
find such independent reliability.”36
With this background in mind, we turn to the first step of
our inquiry—whether the identification procedures employed
by foreign governments during Murad's interrogation were
unduly suggestive. A review of our caselaw suggests
that identification procedures are unduly suggestive when
they involve coercive elements employed to elicit a
specific identification. As we have noted in the context of
photographic presentations, “[t]he [photo] array must not be
so limited that the defendant is the only one to match the
witness's description of the perpetrator.”37 For example, it
could be unduly suggestive if there is a “display” of “only
the picture of a single individual who generally resembles the
person [the witness] saw, or ... the pictures of several persons
among which the photograph of a single such individual
38

recurs or is in some way emphasized.”

In United States v. Fernandez, we held that the use of a sixphoto array where only one of the six persons depicted in
the photographs even “remotely resemble[d]” the witness's
description of the suspect was unduly suggestive.39 Similarly,
in Dunnigan v. Keane, we found that a photo array consisting
of “more than 30 pictures of one individual using an
ATM card, and no pictures of anyone else,” was “highly
suggestive.”40 And in United States v. Ciak, we noted
that a witness's identification of a driver's license in the
police officer's desk as that of the suspect-defendant was
unduly suggestive because the police officer had previously
identified a photograph of the defendant in front of the
witness.41
To be sure, there is no bright-line rule that can be applied
to determine whether an identification procedure is unduly
suggestive. We have stated, however, that “a court must
consider several factors, including the size of the [photo]
array, the manner of presentation by the officers, and the
contents of the array.”42 Thus, although not an exhaustive
summary, we have found identification procedures to be
unduly suggestive when they take at least one of three forms:
(1) a very small number of photographs, which are in turn
presented in a manner that suggests to the witness *112 that
a specific person may be the suspect (as in Fernandez); (2)
a large number of photographs depicting the same person (as
in Dunnigan); or (3) the utterance of suggestive comments by
interrogators to the witness to obtain an identification that is

jointly constructed by supplying the witness with previously
unknown facts about the suspect (as in Ciak).
By contrast, where, as here, there is a large display of
photos arranged in no particular order or format, and the
interrogators do not intimate which picture the witness should
identify, the identification procedure is not impermissibly
suggestive.43 Specifically, we have held that an array of more
than 50 photographs depicting men of the same ethnicity, who
appeared to be of the same age and had similar hair color, was
not unduly suggestive.44 We have also held that an array of
nine, or even as few as six, photographs was not so small as
to suggest the identification of the suspect, where “several of
the persons depicted met [the witness's] description of [the
suspect], and there was no feature of [the suspect's] photo that
made his stand out from all the rest.”45
On review of the record before us, we conclude that the
procedures that resulted in Murad's identification of AlFarekh were not unduly suggestive.
The totality of the circumstances surrounding the
identification of Al-Farekh's photograph in Murad's home
country confirm that the identification procedures were
not employed to elicit a positive identification of AlFarekh. To the contrary, Murad was shown approximately
300 photographs and was asked to identify the persons
depicted in each photograph as part of the home country's
counterterrorism efforts. Out of the 300 photographs that were
shown to Murad, only five—each of them different—depicted
Al-Farekh. [Redacted]. Finally, Murad provided a detailed
description of Al-Farekh's physical appearance and assisted
in the creation of a computer sketch before he was shown the
photograph of Al-Farekh that he identified out of the array.
Unsurprisingly, Al-Farekh does not argue that the
identification procedures in Murad's home country were
unduly suggestive. Instead, Al-Farekh's challenge is premised
on the unsupported assertion that Murad was in fact shown
Al-Farekh's photograph while Murad was in [Redacted]
custody and was subjected to an interrogation that Murad
described as [Redacted].46 *113 According to Al-Farekh,
because Murad was shown the photograph in a [Redacted]
environment in [Redacted] before it was shown to him by
officials in his home country, the circumstances surrounding
the identification were unduly suggestive and rendered
the identification unreliable. But there is no evidence that
Murad was in fact shown the photograph by the [Redacted]

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

A-7

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

authorities. Murad testified that, although possible, he had no
memory of that.
Even assuming, for the sake of argument, that Murad were
shown Al-Farekh's photograph in [Redacted], there is no basis
in the record to conclude that the procedures of the [Redacted]
authorities were unduly suggestive. Murad did testify that the

cross-examining Sibley about the Mayfield incident on the
basis that the potential for confusion and undue prejudice
greatly exceeded whatever probative value the reference to
Mayfield's case might have. Al-Farekh *114 contends that
the District Court's limitation on his cross-examination of
Sibley violated his constitutional right to present a defense
grounded in either the Fifth Amendment's Due Process

interrogation was [Redacted]47 but he did so only in terms of
the disorganization of the photo array and interrogation. The
photo array was in no way unfair or prejudicial to Al-Farekh,
who has not pointed to any evidence in the record suggesting,
much less showing, that there were suggestive comments
uttered during the interrogation or any other attempts to
influence Murad's identification of Al-Farekh. [Redacted].

Clause51 or the Sixth Amendment's Confrontation Clause52
because it prevented him from properly undermining
the reliability of Sibley's testimony and the fingerprint
examination in this case.

Finally, Al-Farekh argues that the identification is unreliable
because there are some inconsistencies in Murad's testimony
relating to when Murad first saw the photograph of AlFarekh that Murad identified as depicting the person that
he knew as al-Shami. That may be so. But none of those
arguable inconsistencies relate to the potential suggestiveness
of the identification procedures that resulted in the challenged
identification. Any remaining “question as to the reliability of
[Murad's] identifications [of Al-Farekh] goes to the weight of

judge's evidentiary ruling[ ] [was] arbitrary and irrational.”54
But when the limitation directly implicates a defendant's
constitutional right, such as his rights under the Confrontation

48

the evidence, not its admissibility.”

In sum, we find no error, let alone “clear error,” in the
admission of Murad's photo identification and his related
testimony.

Generally, we review for an abuse of discretion a judge's
limitation on the scope of a defendant's cross-examination.53
“To find such abuse, we must conclude that the trial

Clause, we review that evidentiary ruling de novo.55 “Even if
error is found, ‘a reviewing court might nonetheless say that
the error was harmless beyond a reasonable doubt.’ ”56
The Confrontation Clause protects a criminal defendant's
right to cross-examine witnesses.57 An undue limitation
on cross-examination may violate the Sixth Amendment's
Confrontation Clause if it prevents the defendant from, among
other things, exposing a witness's biases, motivation, or
incentives for lying, or eliciting testimony that is relevant and
material to the defense.58

C. The Cross-Examination of Fingerprint Examiners in
Light of the Brandon Mayfield Incident
The evidence against Al-Farekh included the testimony
of an FBI fingerprint examiner, Kendra Sibley, who
concluded that 18 latent prints recovered from the adhesive
packing tape in the undetonated VBIED matched AlFarekh's fingerprints. Al-Farekh argues that the District Court
erroneously precluded him from properly cross-examining
Sibley. Specifically, Al-Farekh challenges the District Court's
exclusion of evidence relating to the Brandon Mayfield
incident of May 2004, where FBI examiners examined one
latent print in connection with a terrorist attack on the
commuter trains in Madrid, Spain, and erroneously identified
the fingerprint to be that of Mayfield, a U.S. citizen residing

This is not to say, however, that the defendant has the
unbridled prerogative of cross-examining witnesses about
any topic, or in the manner that the defendant wishes. For
example, once a defendant is able to impeach the witness's
credibility, the extent to which the defendant is able “to
hammer that point home to the jury” is “of peripheral
concern to the Sixth Amendment.”59 Trial judges have
broad discretion to limit the cross-examination of witnesses
as appropriate to minimize the risk of harassment, undue
prejudice, confusion of issues to be presented to the jury,
redundancy of the evidence, or unnecessary delays in the
trial.60 We have thus recognized that district courts have an
independent “responsibility to [e]nsure that issues are clearly
presented to the jury”61 by, for example, imposing reasonable

in Oregon.49
Relying on its discretionary authority under Federal Rule of

*115 limitations on cross-examination.62

Evidence 403,50 the District Court prevented Al-Farekh from
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

A-8

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

The District Court's limitation on the cross-examination
of Sibley does not run afoul of Al-Farekh's rights under
the Confrontation Clause. First, the misidentification of
Mayfield is only marginally relevant to the Government's
case against Al-Farekh. The fingerprint examiners in the
Mayfield incident were not involved in the instant case. And
the Mayfield case involved only one print that was examined
16 years before the trial of Al-Farekh, whereas 18 latent prints
were recovered from the undetonated VBIED and examined
in this case.
Second, the District Court did not preclude Al-Farekh from
highlighting the possible subjectivity of, and potential flaws
in, fingerprint evidence through his cross-examination of
Sibley. To the contrary, Al-Farekh had the opportunity to
do just that. Sibley testified, for example, about the “level
of subjectivity in latent print comparisons” and about the
potential for mistakes by examiners in making false positive
identifications.63 Other than being unable to rely on the
Mayfield case and the report of the Department of Justice's
Office of Inspector General prepared on that case, Al-Farekh
was free to attack Sibley's methodology and fingerprint
examinations as a type of evidence.
There are many types of evidence whose reliability
and objectivity could be probed through effective crossexamination. By relying on scientific literature, expert
testimony, or common-sense experiences, a defendant
may highlight the reliability concerns that are sometimes
associated with, for example, eyewitness identifications or
confessions elicited by police interrogations.64 In doing so,
however, trial judges rarely, if ever, allow defendants to rely
on the facts of wholly unrelated cases to make their point. A
ruling of that sort might confuse jurors.
Fingerprint evidence is no different. Here, the District Court's
limitation on the cross-examination of Sibley is consistent
with the understanding that a defendant may attack the
subjectivity of fingerprint examinations as a category of
evidence, but is not entitled without more to rely on a
fingerprint examiner's mistakes in a wholly unrelated case to
undermine the testimony of a different examiner.65

*116 Since the examiners in the Mayfield case bear no
relation to the examiners in Al-Farekh's case, we see no error
in the District Court's conclusion that marginally relevant
evidence relating to a separate case with no factual connection
to Al-Farekh might confuse the jury and, therefore, should be
excluded.

III. CONCLUSION
To summarize, we hold that:
(1) The District Court's ex parte, in camera adjudication
of motions filed pursuant to § 4 of the Classified
Information Procedures Act (“CIPA”) fell squarely
within the authority granted by Congress. The
District Court therefore properly exercised its authority
under CIPA when it reviewed and adjudicated the
Government's CIPA motions ex parte and in camera,
notwithstanding defense counsel's security clearance.
(2) The totality of the circumstances surrounding the
identification of Al-Farekh's photograph—where he
was shown hundreds of photographs arranged in no
particular manner and where the interrogators did
not utter prejudicial comments on the identification—
were not unduly suggestive. Accordingly, the District
Court did not err in admitting the out-of-court photo
identification of Al-Farekh.
(3) The District Court acted well within its
discretion in limiting Al-Farekh's cross-examination
of the Government's fingerprint examiner to exclude
references to the incident concerning Brandon Mayfield
16 years earlier because the fingerprint examiner here
was not involved in the analysis in that earlier case
that resulted in the misidentification of Mayfield's
fingerprint.
For the foregoing reasons, the District Court's judgment is
AFFIRMED.
All Citations
956 F.3d 99

Footnotes

*

Judge Christina Reiss, of the United States District Court for the District of Vermont, sitting by designation.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

A-9

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

**

1
2

3
4
5
6
7
8

9
10
11
12

13
14
15

16
17

Among the various issues raised in this appeal, there are non-classified facts that were filed under seal with leave of
Court (and upon consent of both parties) in confidential and redacted briefs (and in a sealed appendix) filed by both the
Defendant and the Government. In light of the sensitive nature of this information and upon due consideration of the
strong presumption of public access that attaches to judicial documents, on April 6, 2020, we ordered the Clerk of Court
to make available to all counsel a copy of our sealed opinion. We also ordered counsel for the parties to confer and jointly
propose what, if any, redactions should be made to the sealed opinion before it is made available for public viewing. We
note that the limited redactions in this opinion, which relate to information in the sealed record in this case, were jointly
proposed by counsel and were accepted and made by this Court.
18 U.S.C. app. 3, § 4.
In 2004, Spanish authorities recovered various fingerprints in connection with the terrorist attack on the commuter trains
in Madrid, Spain, and shared the fingerprints with the FBI. See Mayfield v. United States, 599 F.3d 964, 966 (9th Cir.
2010). FBI examiners erroneously identified one of the fingerprints to be that of Brandon Mayfield, a U.S. citizen and
lawyer who resided in Oregon. See id. The FBI arrested Mayfield in connection with the train bombings. See id. at 967.
After the Spanish authorities concluded that the fingerprint was a negative match of Mayfield's fingerprint and identified
the fingerprints as belonging to an Algerian national, Mayfield was released. See id. The Department of Justice's Office
of Inspector General prepared an extensive report acknowledging several errors in the FBI's investigation—errors that
“could have been prevented through a more rigorous application of several principles of latent fingerprint identification.”
U.S. Dep't of Justice, Office of the Inspector General, A Review of the FBI's Handling of the Brandon Mayfield Case, at
6 (2006), available at https://oig.justice.gov/special/s0601/final.pdf.
We have reviewed the source materials underlying the Government's CIPA submissions and conclude that the District
Court did not err in determining that the Government's summaries of those materials were adequate.
United States v. Abu-Jihaad, 630 F.3d 102, 140, 143 (2d Cir. 2010).
18 U.S.C. app. 3, § 1(a) (defining “[c]lassified information” as “any information or material that has been determined
by the United States Government pursuant to an Executive order, statute, or regulation, to require protection against
unauthorized disclosure for reasons of national security”).
Abu-Jihaad, 630 F.3d at 140 (quoting United States v. Aref, 533 F.3d 72, 78 (2d Cir. 2008) (alterations in original and
quotation marks omitted)).
18 U.S.C. app. 3, § 4.
Abu-Jihaad, 630 F.3d at 140 (quoting United States v. Stewart, 590 F.3d 93, 130 (2d Cir. 2009) (quotation marks omitted)).
Federal Rule of Criminal Procedure 16(d)(1) provides in relevant part that “[a]t any time the court may, for good cause,
deny, restrict, or defer discovery or inspection, or grant other appropriate relief” and that “[t]he court may permit a party
to show good cause by a written statement that the court will inspect ex parte.”
Abu-Jihaad, 630 F.3d at 143; see also Stewart, 590 F.3d at 132; Aref, 533 F.3d at 81.
Appellant's Br. at 39 (noting that defense counsel in Aref and Abu-Jihaad did not possess the appropriate security
clearance).
18 U.S.C. app. 3, § 4 (authorizing the deletion of classified information from discoverable materials or the substitution of
a summary or statement for the classified information).
18 U.S.C. app. 3, § 6(a) (authorizing the Government to “request the court to conduct a hearing to make all determinations
concerning the use, relevance, or admissibility of classified information that would otherwise be made during the trial or
pretrial proceeding,” requiring the court to “conduct such a hearing” upon the Government's request, and providing that
any such hearing “shall be held in camera if the Attorney General certifies to the court ... that a public proceeding may
result in the disclosure of classified information”); see also Sen. Rep. No. 96–823, at 7–8.
18 U.S.C. app. 3, § 4.
See id.
See id. app. 3, § 7(a) (“An interlocutory appeal by the United States taken before or after the defendant has been placed
in jeopardy shall lie to a court of appeals from a decision or order of a district court in a criminal case authorizing the
disclosure of classified information, imposing sanctions for nondisclosure of classified information, or refusing a protective
order sought by the United States to prevent the disclosure of classified information.”).
H.R. Rep. No. 96–831, pt. 1, at 27 n.22 (1980); accord Abu-Jihaad, 630 F.3d at 143 (quoting Aref, 533 F.3d at 81).
See, e.g., United States v. Campa, 529 F.3d 980, 995 (11th Cir. 2008) (“The right that section four confers on the
government would be illusory if defense counsel were allowed to participate in section four proceedings because defense
counsel would be able to see the information that the government asks the district court to keep from defense counsel's
view.”); United States v. Klimavicius-Viloria, 144 F.3d 1249, 1261 (9th Cir. 1998) (explaining that “ex parte, in camera

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

A-10

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

18

19

20
21
22
23
24
25
26
27
28
29
30

31
32
33
34
35
36

37
38

hearings in which government counsel participates to the exclusion of defense counsel are part of the process that the
district court may use in order to decide the relevancy of the [classified] information”); accord United States v. Hanna,
661 F.3d 271, 295 (6th Cir. 2011) (same); United States v. Mejia, 448 F.3d 436, 457–58 (D.C. Cir. 2006) (same).
Cf. In re The City of New York, 607 F.3d 923, 948–49 (2d Cir. 2010) (providing guidance to district courts on how to handle
especially sensitive materials to analyze a claim for law enforcement privilege) (citing In re Grand Jury Subpoenas Dated
March 19, 2002 and August 2, 2002, 318 F.3d 379, 386 (2d Cir. 2003) (describing the presentation of documents for in
camera review as a “practice both long-standing and routine in cases involving claims of privilege” and citing illustrative
cases); United States v. Wolfson, 55 F.3d 58, 60–61 (2d Cir. 1995) (noting, in the criminal context, that “the prescribed
procedure for resolving [a] dispute [as to whether certain confidential documents are subject to discovery] is to provide
the documents to the district court for in camera review” and that “[t]he district court normally returns such documents
to the party that submitted them in camera”)).
Persons with an appropriate security clearance still may not have access to classified information if they do not have
a “need to know” that information. See Exec. Order No. 13526, §§ 4.1(a), 6.1(dd), 75 Fed. Reg. 707, 720, 728–29
(Dec. 29, 2009) (internal hyphenation omitted). A defense counsel does not “need to know” classified information that
is neither helpful nor material to the defense of his or her client. See United States v. Libby, 429 F. Supp. 2d 18, 24 &
n.8 (D.D.C. 2006) (“It is axiomatic that even if the defendant and his attorneys had been granted the highest level of
security clearances, that fact alone would not entitle them to access to every piece of classified information this country
possesses.”), as amended, 429 F. Supp. 2d 46 (D.D.C. 2006).
Appellant's App'x (“App'x”) at 112.
See United States v. Ciak, 102 F.3d 38, 42 (2d Cir. 1996) (citing United States v. Jakobetz, 955 F.2d 786, 803 (2d Cir.
1992)).
United States v. Thai, 29 F.3d 785, 808 (2d Cir. 1994).
Sealed App'x at 14–15.
Id. at 15.
Because Murad's country of residence is sensitive information that was filed under seal, we will refer to it as “home
country” throughout this opinion.
App'x at 108.
Sealed App'x at 16.
Id.
App'x at 112.
Id.. At his deposition, Murad testified that he could not remember if the [Redacted] authorities had shown him that specific
photograph, but that he was sure that the authorities in his home country had shown it to him after composing the sketch.
Murad also was shown four other photographs of Al-Farekh, but was not able to identify them. Unlike the photograph of
Al-Farekh that Murad did identify, the other four photographs depicted Al-Farekh at a different time of his life and with
a significantly different physical appearance.
United States v. Maldonado-Rivera, 922 F.2d 934, 973 (2d Cir. 1990).
Thai, 29 F.3d at 808 (citing United States v. Concepcion, 983 F.2d 369, 377 (2d Cir. 1992); Maldonado-Rivera, 922 F.2d
at 973).
Maldonado-Rivera, 922 F.2d at 973.
Id. (citing Jarrett v. Headley, 802 F.2d 34, 42 (2d Cir. 1986)).
Id. (citing Manson v. Brathwaite, 432 U.S. 98, 114, 97 S. Ct. 2243, 53 L. Ed. 2d 140 (1977); Sims v. Sullivan, 867 F.2d
142, 145 (2d Cir. 1989); Dickerson v. Fogg, 692 F.2d 238, 244 (2d Cir. 1982)). Here, the in-court identification consists
of Murad's testimony at his Rule 15 deposition, which was admitted into evidence at trial.
Ciak, 102 F.3d at 42 (citing Dickerson, 692 F.2d at 247). In conducting this second-step inquiry into whether an
identification is independently reliable, a court must consider the following factors: “the opportunity of the witness to view
the criminal at the time of the crime, the witness’ degree of attention, the accuracy of the witness’ prior description of the
criminal, the level of certainty demonstrated by the witness at the confrontation, and the length of time between the crime
and the confrontation.” Neil v. Biggers, 409 U.S. 188, 199–200, 93 S. Ct. 375, 34 L. Ed. 2d 401 (1972).
Maldonado-Rivera, 922 F.2d at 974.
Simmons v. United States, 390 U.S. 377, 383, 88 S. Ct. 967, 19 L. Ed. 2d 1247 (1968).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

A-11

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

39
40
41
42
43

44
45

46
47
48
49
50
51
52
53
54
55
56
57
58
59
60
61
62
63
64

United States v. Fernandez, 456 F.2d 638, 641–42 (2d Cir. 1972). Notably, we also noted in dictum that if there had
been an 11-photo array with two photographs depicting the person who matched the witness's physical description, the
identification procedure would have been permissible. See id.
Dunnigan v. Keane, 137 F.3d 117, 129 (2d Cir. 1998), abrogated on other grounds by Perry v. New Hampshire, 565 U.S.
228, 132 S. Ct. 716, 181 L. Ed. 2d 694 (2012).
Ciak, 102 F.3d at 42 (noting that “the Government concedes, as it must, that [the police] employed unduly suggestive
pre-trial procedures with [the witness]” (emphasis added)).
Thai, 29 F.3d at 808 (citing Concepcion, 983 F.2d at 377; Maldonado-Rivera, 922 F.2d at 974).
See, e.g., id. at 810 (“Although repeatedly asking a witness who has selected a certain photo to look again at the array
might be troubling in some circumstances, for example if there were a small number of photos and only one perpetrator,
the procedure described here, given the large number of photos in the array and the large number of robbers, was not
impermissible.”); United States ex rel. Gibbs v. Vincent, 524 F.2d 634, 637–39 (2d Cir. 1975) (concluding that a procedure
involving the display of several hundreds of photographs to witnesses of an armed robbery was appropriate).
See Thai, 29 F.3d at 809.
Maldonado-Rivera, 922 F.2d at 974–75 (involving a witness's description of a suspect “as a Puerto Rican man in his
30's who had a small stature, was balding or losing some of his hair, and had a small beard,” as well as an array of nine
photographs depicting persons whose ethnicity was “indeterminate, and the majority may well be Hispanic,” “[a]ll but one
or two of the subjects appear to be in their 30's,” “[a]ll nine have a small amount of facial hair,” and “[t]wo appear to be
balding, and two others have hairlines that may be receding”); see, e.g., United States v. Archibald, 734 F.2d 938, 940–
41 (2d Cir. 1984) (upholding a six-photo array); United States v. Marrero, 705 F.2d 652, 655 n.5 (2d Cir. 1983) (same);
United States v. Bennett, 409 F.2d 888, 898 (2d Cir. 1969) (same).
Sealed App'x at 15.
Id.
Maldonado-Rivera, 922 F.2d at 973 (citing Jarrett, 802 F.2d at 42).
See supra note 2.
Federal Rule of Evidence 403 provides: “The court may exclude relevant evidence if its probative value is substantially
outweighed by a danger of one or more of the following: unfair prejudice, confusing the issues, misleading the jury, undue
delay, wasting time, or needlessly presenting cumulative evidence.”
The Fifth Amendment's Due Process Clause provides that “[n]o person shall be ... deprived of life, liberty, or property,
without due process of law.” U.S. Const. amend. V.
The Sixth Amendment's Confrontation Clause provides that “[i]n all criminal prosecutions, the accused shall enjoy the
right ... to be confronted with the witnesses against him[.]” U.S. Const. amend. VI.
See United States v. White, 692 F.3d 235, 244 (2d Cir. 2012) (citing United States v. Figueroa, 548 F.3d 222, 226 (2d
Cir. 2008)).
Id. (quoting United States v. Paulino, 445 F.3d 211, 217 (2d Cir. 2006) (quotation marks omitted)).
United States v. Vitale, 459 F.3d 190, 195 (2d Cir. 2006) (citations omitted).
Id. (quoting Delaware v. Van Arsdall, 475 U.S. 673, 684, 106 S. Ct. 1431, 89 L .Ed. 2d 674 (1986)).
See Pennsylvania v. Ritchie, 480 U.S. 39, 51, 107 S. Ct. 989, 94 L. Ed. 2d 40 (1987).
See id. at 51–52, 107 S. Ct. 989.
United States v. Groce, 891 F.3d 260, 267 (7th Cir. 2018) (citations and quotations omitted); accord Vitale, 459 F.3d
at 195–96.
See Van Arsdall, 475 U.S. at 679, 106 S. Ct. 1431 (noting that district courts have “wide latitude ... to impose reasonable
limits ... on cross-examination based on concerns about, among other things, harassment, prejudice, confusion of the
issues, the witness’ safety, or interrogation that is repetitive or only marginally relevant”).
United States v. Pisani, 773 F.2d 397, 403 (2d Cir. 1985) (citing United States v. Vega, 589 F.2d 1147, 1152 (2d Cir.
1978)); see also Fed. R. Evid. 403 (authorizing the court to “exclude relevant evidence if its probative value is substantially
outweighed by a danger of ... confusing the issues [or] misleading the jury”).
See, e.g., Vitale, 459 F.3d at 195; United States v. Sasso, 59 F.3d 341, 347 (2d Cir. 1995).
Gov't App'x at 61.
To be clear, the availability of cross-examination as a tool to probe the reliability of evidence does not eliminate the trial
judge's obligation to determine the admissibility of the evidence in the first instance, particularly where the defendant's
constitutional rights are implicated. As discussed above, judges have an independent obligation to determine if, for

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

A-12

United States v. Muhanad Mahmoud Al-Farekh, 956 F.3d 99 (2020)

65

example, an out-of-court identification is the result of unduly suggestive procedures, or if the coercion inherent in custodial
interrogations has resulted in an involuntary confession that should be excluded.
See, e.g., United States v. Bonds, 922 F.3d 343, 344, 346 (7th Cir. 2019) (holding that the exclusion of evidence relating
to the Mayfield incident during the cross-examination of an FBI examiner who worked “in the same FBI division that
mistakenly identified Mayfield” was appropriate because, among other things, “[g]uilt by association would be a poor
reason to deny a district judge the discretion otherwise available under Fed. R. Evid. 403”); United States v. Rivas, 831
F.3d 931, 935 (7th Cir. 2016) (holding that “there was no Sixth Amendment violation (or abuse of discretion, to the extent
[the defendant] argues it)” in the district court's limitation on the cross-examination of the fingerprint examiner because
the examiner “was not the person who conducted the analysis in the Mayfield case[,] ... was not involved in the Mayfield
case in any way, and the separate Mayfield case has no relationship to this case”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

APPENDIX B

United States v. Al Farekh, 810 Fed.Appx. 21 (2020)

A-13

810 Fed.Appx. 21
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION TO
A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION "SUMMARY
ORDER"). A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
v.
Muhanad Mahmoud AL
FAREKH, Defendant-Appellant.
18-943-cr
|
April 16, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the Eastern District of New York, Brian
M. Cogan, J., 2016 WL 4444778, of use of explosives,
conspiracy to use weapon of mass destruction, and related
offenses and was sentenced to 45 years' imprisonment.
Defendant appealed.

Holdings: The Court of Appeals held that:
handwritten letters found in USB drive were authenticated
and, thus, admissible;
district court's limitation on cross-examination of former
foreign terrorist organization collaborator did not violate
Confrontation Clause;

district court did not abuse its discretion in refusing to excuse
juror and denying defendant's request for mistrial; and
sentence was not substantively unreasonable.
Affirmed.
*23 Appeal from a judgment of the United States District
Court for the Eastern District of New York (Brian M. Cogan,
Judge).
UPON DUE CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment of the District Court be and hereby is
AFFIRMED.
Attorneys and Law Firms
FOR APPELLEE: Richard M. Tucker, Assistant United
States Attorney (David C. James, Douglas M. Pravda, Saritha
Komatireddy, Assistant United States Attorneys; Alicia
Cook, Trial Attorney, Counterterrorism Section, United
States Department of Justice, Washington, D.C., on the brief),
for Richard P. Donoghue, United States Attorney, Eastern
District of New York, Brooklyn, NY.
FOR DEFENDANT-APPELLANT: Lawrence M. Stern
(Robert J. Boyle, on the brief), New York, NY.
PRESENT: José A. Cabranes, Raymond J. Lohier, Jr., Circuit
Judges, Christina Reiss, District Judge.*

SUMMARY ORDER
Defendant-Appellant Muhanad Mahmoud Al Farekh
(“Al-Farekh”) appeals from a judgment convicting him,
following a jury trial, of: use of explosives; conspiracy to
murder U.S. nationals; conspiracy to use a weapon of mass
destruction; conspiracy to use a weapon of mass destruction
by a U.S. national; conspiracy to bomb a U.S. government
facility; conspiracy to provide, attempt to provide, and
provision of material support to terrorists; and conspiracy
to provide, attempt to provide, and provision of material
support to the Foreign Terrorist Organization al-Qaeda. The
District Court sentenced Al-Farekh principally to 45 years’
imprisonment.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Al Farekh, 810 Fed.Appx. 21 (2020)

A-14

On appeal, Al-Farekh challenges a series of evidentiary
rulings, as well as the District Court's denial of his request
to declare a mistrial. In addition, Al-Farekh challenges
the substantive reasonableness of his sentence. We assume
the parties’ familiarity with the underlying facts, procedural
history of the case, and issues on appeal.
In an opinion filed simultaneously herewith, we reject
Al-Farekh's challenges to the handling of the Government's
motions filed pursuant to the Classified Information
*24 Procedures Act, the admission of an out-of-court
photo identification of Al-Farekh, and the limitation
on Al-Farekh's cross-examination of the Government's
fingerprint examiner. We now address the remainder of
Al-Farekh's arguments and conclude that the judgment of
conviction and sentence should be affirmed.
I. The District Court's Evidentiary Rulings
“We review a district court's evidentiary rulings under a
deferential abuse of discretion standard, and we will disturb
an evidentiary ruling only where the decision to admit or
exclude evidence was ‘manifestly erroneous.’ ” United States
v. McGinn, 787 F.3d 116, 127 (2d Cir. 2015) (quoting United
States v. Samet, 466 F.3d 251, 254 (2d Cir. 2006)). Where we
find an abuse of discretion, “vacatur is required unless we are
‘convinced that the error was harmless beyond a reasonable
doubt.’ ” United States v. Mejia, 545 F.3d 179, 199 (2d Cir.
2008) (quoting United States v. Reifler, 446 F.3d 65, 87 (2d
Cir. 2006)).
In determining whether an erroneous admission was
harmless, we consider: “(1) the overall strength of the
prosecutor's case; (2) the prosecutor's conduct with respect to
the improperly admitted evidence; (3) the importance of the
wrongly admitted testimony; and (4) whether such evidence
was cumulative of other properly admitted evidence.” United
States v. Gomez, 617 F.3d 88, 95 (2d Cir. 2010) (quotation
marks and citation omitted).

A. Written Communications by Co-Conspirators Imam
and Yar
Al-Farekh argues on appeal that the District Court erred
when it admitted into evidence an e-mail by Ferid Imam and
two letters by Maiwand Yar, Al-Farekh's co-conspirators.
According to Al-Farekh, these statements are irrelevant and
contain hearsay that does not fall into any hearsay exception.

On review, we conclude that the District Court did not
abuse its discretion in admitting the written communications
by Imam and Yar. We do so for substantially the reasons
given by the District Court in its thorough September 13,
2017 Decision and Order granting the Government's motion
in limine to admit Imam's e-mail and Yar's letters. See
Appellant's App'x (“App'x”) at 49–55.

B. Al-Farekh's Handwritten Letters
We also reject Al-Farekh's argument that the District Court
abused its discretion by admitting the handwritten letters that
were found in a USB drive that was handed to an agent of the
Federal Bureau of Investigation in Afghanistan. Al-Farekh
contends that these letters should have been excluded because
they were not authenticated.
We disagree. Although the Government did not present
evidence regarding the circumstances surrounding the seizure
of the USB drive, Federal Rule of Evidence 901(b)
(4) permits authentication based on “[t]he appearance,
contents, substance, internal patterns, or other distinctive
characteristics of the item, taken together with all the
circumstances.” The Government satisfied Rule 901(b)(4)
here. For example, the letters were signed in Arabic text
“Abdullah” or “Abdullah al-Shami,” the kunya that the
Government witness Sufwan Murad, a former al-Qaeda
collaborator, attributed to Al-Farekh. The Government also
presented expert testimony that there were considerable
similarities between the handwriting in the letters in the
seized USB drive and the known samples of Al-Farekh's
handwriting. Finally, the content of the letters—namely, the
author's desire to wage violent jihad against the United
States and the fear for his safety as a *25 leader in alQaeda's external operations division—are consistent with
Murad's description of Al-Farekh. In light of the totality
of the circumstances, the District Court did not abuse its
discretion in finding that the proof of authentication was
sufficient to pass the relatively low bar for authentication of
evidence, see United States v. Al-Moayad, 545 F.3d 139, 172–
73 (2d Cir. 2008), and that any remaining questions as to the
reliability of the letters go to their evidentiary weight, not their
admissibility, see App'x at 39–40.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Al Farekh, 810 Fed.Appx. 21 (2020)

A-15

C. The Testimony of Professor Lorenzo Vidino, the
Testimony of Evan Kohlmann, and the Video of a
Controlled Detonation
We similarly reject Al-Farekh's challenge to the admission
of: (1) expert testimony by Professor Vidino, Director of
the Center on Extremism at George Washington University,
on the absence of a single jihadist profile and the routes
commonly used to travel to join al-Qaeda in the Middle
East; (2) testimony by fact witness Evan Kohlmann, founder
of a company that collected online information on alQaeda and disseminated threat intelligence reports to clients,
summarizing certain lectures of Anwar al-Awlaki, as well as
the excerpts from certain jihadist materials; (3) a one-minute,
40-second-long video depicting the controlled detonation of a
vehicle-borne improvised explosive device, the type of bomb
that was used in a terrorist attack against a U.S. military base
in Afghanistan and on which Al-Farekh's fingerprints were
found. We find no error in the admission of this evidence and
conclude that the District Court's analysis under Rule 403,
which is entitled to considerable deference on appeal, see
United States v. Greer, 631 F.3d 608, 614 (2d Cir. 2011), was
not “manifestly erroneous,” McGinn, 787 F.3d at 127 (quoting
Samet, 466 F.3d at 254).
Even if we were to assume, for the sake of argument only,
that the District Court erred in admitting the testimony
of Professor Vidino, the testimony of Kohlmann, or the
detonation video, any such error would have been harmless in
light of, among other things, the strength of the Government's
case against Al-Farekh. See United States v. Stewart, 907
F.3d 677, 689 (2d Cir. 2018) (“We have repeatedly held that
the strength of the government's case is the most critical factor
in assessing whether error was harmless.” (quotation marks
omitted)).

D. Limitations on the Cross-Examination of Sufwan
Murad
Al-Farekh also disputes the District Court's decision
to permit Murad to testify using a pseudonym and to
limit the scope of the cross-examination to preclude
Al-Farekh's counsel from eliciting testimony about Murad's
identity, country of origin, nationality, location, and ongoing
cooperation with authorities. Al-Farekh contends that this
decision violated his rights under the Confrontation Clause.

The Confrontation Clause protects a criminal defendant's
right to cross-examine the prosecution's witnesses. See
Pennsylvania v. Ritchie, 480 U.S. 39, 51, 107 S.Ct. 989,
94 L.Ed.2d 40 (1987). That right, however, is not absolute.
Trial judges have “wide latitude ... to impose reasonable
limits ... on ... cross-examination based on concerns about,
among other things, harassment, prejudice, ... or the witness’
safety.” Delaware v. Van Arsdall, 475 U.S. 673, 679, 106
S.Ct. 1431, 89 L.Ed.2d 674 (1986); accord United States
v. Vitale, 459 F.3d 190, 195 (2d Cir. 2006). Although we
generally review a limitation on the scope of a defendant's
cross-examination of a Government witness for an abuse
of discretion, *26 when the limitation directly implicates
the defendant's constitutional rights under the Confrontation
Clause, we review the ruling de novo. See Vitale, 459 F.3d at
195.
We find no error in the District Court's evidentiary ruling. As
a threshold matter, Al-Farekh does not present any evidence
undermining the Government's reasonable assertion that the
safety of Murad, a former al-Qaeda collaborator who assisted
in counterterrorism investigations, may be in fact jeopardized
in the absence of the District Court's protective order.
Moreover, the narrowly tailored limitations on Al-Farekh's
cross-examination are consistent with limitations that this
Court has upheld as appropriate to protect the safety of
witnesses. See, e.g., United States v. Watson, 599 F.2d
1149, 1157 (2d Cir. 1979) (upholding limitation on crossexamination that precluded, among other things, questions
concerning the witness's “employment, whether he was
supporting his family, and the price of his automobile,”
in order to permit the witness “to maintain his concealed
identity” as part of his enrollment in Witness Protection
Program), modified on other grounds, 633 F.2d 1041 (2d
Cir. 1980) (en banc); United States v. Cavallaro, 553
F.2d 300, 304–05 (2d Cir. 1977) (upholding limitation on
cross-examination that precluded questions concerning the
kidnapping victim's current address).
Al-Farekh was aware of Murad's identity in advance of
the deposition, as the Government did not seek to limit its
disclosures to Al-Farekh on this subject. And Al-Farekh was
permitted to explore Murad's alleged biases and motivations
for lying during his cross-examination. Accordingly, we
conclude that the District Court's limitation on the crossexamination of Murad's testimony was reasonable and did not
violate Al-Farekh's rights under the Confrontation Clause.
II. The Denial of Al-Farekh's Request for a Mistrial

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Al Farekh, 810 Fed.Appx. 21 (2020)

A-16

Al-Farekh challenges the District Court's denial of his
motion to excuse one of the jurors and, in the alternative, for a
mistrial. Al-Farekh moved for a mistrial after the first day of
deliberations, following an incident in which Juror 4 reported
to the District Court that he had heard that Al-Farekh's father
had boarded an elevator with another juror, but that Juror 4
was not aware of what, if anything, the father had said to the
other juror.
We review the District Court's denial for abuse of discretion.
See United States v. Farhane, 634 F.3d 127, 168 (2d Cir.
2011). Under Remmer v. United States, 347 U.S. 227, 74
S.Ct. 450, 98 L.Ed. 654 (1954), we start with a presumption
of prejudice from a jury's exposure to extra-record evidence.
See Farhane, 634 F.3d at 168–69 (citing Remmer, 347 U.S.
at 229, 74 S.Ct. 450). That presumption, however, may be
rebutted by a “showing that the extra-record information was
harmless.” Id. at 168 (quotation marks omitted). To determine
if the presumption is properly rebutted, we must consider the
“(1) the nature of the information or contact at issue, and (2)
its probable effect on a hypothetical average jury.” Id. at 169.
On review, we conclude that the District Court did not abuse
its discretion in refusing to excuse Juror 4 and to grant
Al-Farekh's request for a mistrial. Juror 4's access to extrarecord information in this case—hearing that Al-Farekh's
father boarded an elevator in the courthouse with a juror
—is “harmless.” Id. at 168. Juror 4 had no knowledge
about any conversation between Al-Farekh's father and any
jurors. Moreover, the District Court took several important
steps to remedy any potential prejudice, including conducting
individualized inquiries of all jurors and alternate jurors
and issuing two instructions to the jury that were consented
to by both *27 the Government and Al-Farekh. More
importantly, Juror 4 indicated to the District Court that the
reported extra-record information will not affect his ability to
be a fair juror in the case.
Under the circumstances presented, in light of the innocuous
nature of the extra-record information, the District Court's
reasonable and precautionary measures to minimize the risk
of prejudice, and the juror's assurances to remain impartial,
we conclude that the Remmer presumption was properly
rebutted and thus find no abuse of discretion. See Farhane,
634 F.3d at 168–69; see also United States v. Sun Myung
Moon, 718 F.2d 1210, 1219 (2d Cir. 1983) (“Absent a clear

abuse of the trial court's discretion, one that results in manifest
prejudice to defendants, the finding made that the jury was
fair and unbiased must be upheld.”).
III. Substantive Reasonableness of the Sentence
Al-Farekh also challenges the substantive reasonableness
of his 45-year prison sentence, which we review “under a
deferential abuse-of-discretion standard.” United States v.
Yilmaz, 910 F.3d 686, 688 (2d Cir. 2018) (citation omitted).
Our review of a sentence for substantive reasonableness is
“particularly deferential.” United States v. Broxmeyer, 699
F.3d 265, 289 (2d Cir. 2012). We will set aside a sentence as
substantively unreasonable only if it is “so shockingly high,
shockingly low, or otherwise unsupportable as a matter of law
that allowing [it] to stand would damage the administration
of justice.” Id. (internal quotation marks omitted).
Al-Farekh's challenge to his sentence is meritless. Contrary
to Al-Farekh's assertion, the District Court specifically
considered the letters from Al-Farekh's friends and family
and Al-Farekh's own letter. Notably, the letters submitted on
Al-Farekh's behalf describe the young teenager who went to
college at the University of Manitoba prior to his departure
for Pakistan in 2007. These letters provide little, if any, insight
into the mindset or character of the adult who traveled to
Pakistan to join a terrorist organization to perpetrate violent
attacks against military and civilian personnel. Moreover,
Al-Farekh's own letter was “not an enthusiastic acceptance
of responsibility or expression of remorse.” App'x at 565.
In light of the severity of Al-Farekh's conduct, we conclude
that a 45-year sentence of imprisonment is simply not
substantively unreasonable.

CONCLUSION
We have reviewed all of the arguments raised by Al-Farekh
on appeal and find them to be without merit. For the foregoing
reasons, we AFFIRM the judgment of the District Court.
All Citations
810 Fed.Appx. 21

Footnotes

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Al Farekh, 810 Fed.Appx. 21 (2020)

*

A-17

Judge Christina Reiss, of the United States District Court for the District of Vermont, sitting by designation.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

APPENDIX C

A-18

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 1 of 6 PageID #: 236

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------------------------UNITED STATES OF AMERICA,
-againstMUHANAD MAHMOUD AL FAREKH, also
known as “Abdullah al-Shami,” “Abdallah alShami” and “Saif al-Shami”

X
:
:
:
:
:
:
:
:
:

MEMORADUM DECISION
& ORDER
15-CR-268 (BMC)

Defendant.
----------------------------------------------------------COGAN, D.J.

X

Defendant Muhanad Mahmoud Al-Farekh is currently awaiting trial on a number of
charges relating to his use of a weapon of mass destruction against a U.S. military base in
Afghanistan in January 2009, and his conspiracy, attempt, and provision of material support to
terrorists and to the foreign terrorist organization al-Qaeda. Before me is the Government’s
motion for a protective order pursuant to both the Classified Information Procedures Act
(“CIPA”), 18 U.S.C. app. 3, §§ 1-16, and Federal Rule of Criminal Procedure 16(d)(1). In its
classified submission, the Government seeks, in line with CIPA Section 4, to be relieved from its
disclosure obligations as they relate to certain classified materials obtained during the
Government’s investigation. The Government requests that I authorize the substitution of
classified summaries for classified source material which the Government believes may contain
exculpatory and impeachment evidence that would otherwise have to be disclosed in accordance
with the Government’s obligations under Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194 (1963),
and Giglio v. United States, 405 U.S. 150, 92 S. Ct. 763 (1972).
Because of the sensitive nature of these materials, the Government’s submission was
filed ex parte and under seal. Defendant has opposed the ex parte nature of this submission and

A-19

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 2 of 6 PageID #: 237

has filed a motion seeking to have the materials disclosed to defense counsel who hold
appropriate security clearances. In the alternative, defendant has asked the Court to require the
Government to disclose its legal arguments in support of its Section 4 application, and/or provide
defense counsel an opportunity to make an ex parte presentation to the Court providing
information that would help the Court in evaluating the Government’s Section 4 submission.
See United States v. Mostafa, 992 F. Supp. 2d 335 (S.D.N.Y. 2014). The Government did not
oppose defendant’s request for an ex parte presentation to the Court.
I have reviewed the proposed materials in camera. I met with defendant’s counsel ex
parte, as requested, to listen to a presentation defendant’s attorneys made about defenses that
they anticipate raising in this action. I also met with the Government ex parte, in camera, to
discuss certain questions I had after reviewing the proposed materials. As a result of this latter
meeting, the Government made certain revisions to the proposed summaries.
Based on my review of the parties’ submissions, my meetings with defense counsel and
the Government, and for the reasons set forth below, I grant the Government’s motion in its
entirety and deny defendant’s motion to disclose the underlying Section 4 materials.
CIPA’s Legal Framework
CIPA establishes procedures for handling classified information in criminal cases. The
statute provides:
The [district] court, upon a sufficient showing, may authorize the United States to
delete specified items of classified information from documents to be made
available to the defendant through discovery under the Federal Rules of Criminal
Procedure, to substitute a summary of the information for such classified
documents, or to substitute a statement admitting relevant facts that the classified
information would tend to prove. The court may permit the United States to make
a request for such authorization in the form of a written statement to be inspected
by the court alone.
18 U.S.C. app. 3 § 4.

A-20

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 3 of 6 PageID #: 238

Section 4 presupposes a Government privilege against disclosing classified information.
It does not itself create a privilege. See United States v. Aref, 533 F.3d 72 (2d Cir. 2008).
Courts evaluating a Section 4 motion must first decide whether the classified information the
Government possesses is discoverable. See id. at 80. To be helpful or material to the defense,
evidence does not need to rise to a level that would trigger the Government’s obligations under
Brady. See United States v. Boulos, No. 13 Cr. 612, 2015 WL 502170, at *1 (E.D.N.Y. Feb. 3,
2015).
If it is discoverable material, the district court must next determine whether the statesecret privilege applies. The privilege applies if: “(1) there is a reasonable danger that
compulsion of the evidence will expose . . . matters which, in the interest of national security,
should not be divulged, and (2) the privilege is lodged by the head of the department which has
control over the matter, after actual personal consideration by that officer.” United States v.
Abu-Jihaad, 630 F.3d 102, 141 (2d Cir. 2010) (citing Aref, 533 F.3d at 80).
Finally, “[i]f the evidence is discoverable but the information is privileged, the court must
next decide whether the information is helpful or material to the defense.” Aref, 533 F.3d at 80.
“‘[I]n assessing the materiality of withheld information,” a court “considers not only the logical
relationship between the information and the issues in the case, but also the importance of the
information in light of the evidence as a whole.’” In re Terrorist Bombings of U.S. Embassies in
E. Africa, 552 F.3d 93, 125 (2d Cir. 2008) (citing United States v. Stevens, 985 F.2d 1175, 1180
(2d Cir. 1993)).
When the classified materials contain matter that is exculpatory or helpful to the defense,
the Government’s privilege must “give way” to a “defendant’s right to present a meaningful
defense.” Abu-Jihaad, 630 F.3d at 141. A court, however, may permit the Government to

A-21

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 4 of 6 PageID #: 239

produce that information in a form that will preserve its sensitivity – such as summaries. See
United States v. Zazi, No. 10 Cr. 60, 2011 WL 2532903 (E.D.N.Y. June 24, 2011). A court can
authorize this substitution if it finds that the “[substituted] statement or summary will provide the
defendant with substantially the same ability to make his defense as would disclosure of the
specific classified information.” Id. at *4; see also Abu-Jihaad, 603 F.3d at 140.
Suitability of Ex Parte Proceedings
Defendant has also challenged the ex parte nature of these proceedings. Defendant
concedes that Section 4 of CIPA and Rule 16(d)(1) of the Federal Rules of Criminal Procedure
both authorize ex parte proceedings. See Abu-Jihaad, 630 F.3d at 143. However, he urges the
Court to exercise its discretion to deny the Government’s request to file its materials ex parte.
This argument is contrary to Second Circuit precedent and the practice of other courts
within this district. See Abu-Jihaad, 630 F.3d at 143; Zazi, 2011 WL 2532903, at *3; United
States v. Babafemi, 13 Cr. 109, 2014 WL 1515277, at *3 (E.D.N.Y. Apr. 18, 2014). As the
Second Circuit has observed, “where the government moves to withhold classified information
from the defense, an adversary hearing with defense knowledge would defeat the very purpose of
the discovery rules.” Abu-Jihaad, 630 F.3d at 143.
Discussion
First, I find that the Government’s Section 4 submission was appropriately filed ex parte
and under seal. Notwithstanding defendant’s lawyers’ security clearances, the very purpose of
the ex parte filing would be defeated by their review of the materials contained within it. My
review of the detailed, highly confidential materials confirms this. I did, however, accept
defendant’s lawyers offer to apprise me, ex parte, of their theory of the case and potential

A-22

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 5 of 6 PageID #: 240

defenses so that I could better understand what kind of material might be helpful to the defense
and to help me determine the adequacy of the Government’s proposed summaries.
Next, I find that the state secrets privilege has been properly invoked. See Aref, 533 F.3d
at 78-79. Upon review of the Government’s submission, it is obvious to me that there is a real
and palpable danger that compelled production of the evidence “will expose . . . matters which,
in the interest of national security, should not be divulged.” Id. at 80. Additionally, the
Government’s submission includes declarations by each appropriate head of the department
which has control over the material, asserting the privilege. See Abu-Jihaad, 630 F.3d at 140.
In light of the security concerns presented by the material, the Government has proposed
the substitution of classified summaries for a significant amount of source material. I find that
the source material which the Government seeks to summarize contains discoverable
information. The Government, to its credit, has undertaken a rigorous review of the material and
has applied a generous approach to whether material could be considered exculpatory or
impeaching. It has properly worked to exclude materials that are duplicative or irrelevant.
I conclude that any information withheld from the summaries (which appears to be
almost none) is not helpful to the defense, and consequently, substitution of the summaries does
not impinge upon defendant’s right to a fair trial. My review of the summaries proposed by the
Government confirms that it has offered faithful and often verbatim summaries that disclose, in a
streamlined fashion, all arguably relevant portions of the underlying material. I believe that the
substituted documents retain whatever potential exculpatory or impeachment value the source
materials possess. The Government’s diligent efforts notwithstanding, I will note the difficulties
faced by defendant in defending a case involving these types of materials. But I find that

A-23

Case 1:15-cr-00268-BMC Document 59 Filed 08/23/16 Page 6 of 6 PageID #: 241

providing these summaries to defendant’s counsel satisfies the Government’s discovery
obligations while at the same time protecting national security.
Conclusion
I therefore grant the Government’s motion for a protective order pursuant to Section 4 of
CIPA. The Government shall produce to defense counsel the summaries described in its
submission forthwith.
SO ORDERED.

U.S.D.J.
Dated: Brooklyn, New York
August 23, 2016

APPENDIX D

A-24

Case 1:15-cr-00268-BMC Document 144 Filed 09/11/17 Page 1 of 2 PageID #: 752

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------------------------UNITED STATES OF AMERICA,
-againstMUHANAD MAHMOUD AL FAREKH, also
known as “Abdullah al-Shami,” “Abdallah alShami,” and “Saif al-Shami”
Defendant.
-----------------------------------------------------------

X
:
:
:
:
:
:
:
:
:
:
:
X

ORDER
15-CR-268 (BMC)

COGAN, District Judge.
The Government’s motions [131] [132] and [134] are granted for the following reasons:
1.

The controlled detonation depicted in the video occurs in an unpopulated field, so

there is no risk of inflaming the jury with pictures of casualties, and there is no reference to al
Qaeda or Afghanistan, thus making it clear to the jury that the video is for illustrative purposes
only. Moreover, the FBI expert through whom the Government intends to offer the video
assisted in preparing this controlled detonation. In addition, the size of the explosion depicted
provides a reasonable, though smaller, illustration of the explosion that would have been created
by the detonation of the TNT contained in the undetonated VBIED recovered from FOB
Chapman in January 2009. The fact that the detonation is smaller is favorable to defendant, and
where the differences favor defendant, it tends to support admissibility. See United States v.
Cromitie, 727 F.3d 194, 225 (2d Cir. 2013).
2.

Defendant has consented to that portion of the motion which seeks to exclude

evidence of his treatment in a foreign country and the enumerated misdeeds of certain witnesses,
subject to the exigencies of trial which defendant could not have reasonably foreseen at the time

A-25

Case 1:15-cr-00268-BMC Document 144 Filed 09/11/17 Page 2 of 2 PageID #: 753

the Government filed its motion. Accordingly, the Government’s motion as to that evidence is
conditionally granted.
3.

The Government’s motion to preclude cross-examination into the Brandon

Mayfield incident is granted over defendant’s opposition. Defendant has not made the
connection between the Mayfield case and this one. There is little if any probative value in this
evidence, and the potential for confusion and undue prejudice greatly exceeds whatever
probative value it might have. See United States v. Rivas, 831 F.3d 931, 935 (7th Cir. 2016).
There is a very real risk that allowing the cross-examination would create a sideshow in which
the jury might be distracted in comparing the facts in the Mayfield case with this one.
SO ORDERED.
______________________________________
U.S.D.J.
Dated: Brooklyn, New York
September 11, 2017

APPENDIX E

A-26

Case 18-943, Document 160, 08/11/2020, 2905273, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
11th day of August, two thousand twenty.
________________________________________
United States of America,
Appellee,
ORDER
v.

Docket No: 18-943

Muhanad Mahmoud Al Farekh,
Defendant - Appellant.
_______________________________________
Appellant, Muhanad Mahmoud Al Farekh, filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

